No. 20-697 & 20A101
IN THE

Supreme Court of the United States
_________

ORLANDO CORDIA HALL
Petitioner,
v.
T.J. WATSON, WARDEN, USP TERRE HAUTE,
Respondent.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
Execution Date: November 19, 2020 at 6:00 PM
_________
REPLY IN SUPPORT OF PETITION FOR
CERTIORARI AND EMERGENCY
APPLICATION FOR A STAY OF EXECUTION
_________
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004
MARCIA A. WIDDER
104 MARIETTA STREET NW,
SUITE 260
ATLANTA, GA 30303
(404) 222-9202

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com
ROBERT C. OWEN
LAW OFFICE OF ROBERT C. OWEN,
LLC
53 WEST JACKSON BLVD., SUITE
1056
CHICAGO, IL 60604

Counsel for Orlando Cordia Hall

IN THE

Supreme Court of the United States
_________

No. 20-697 & 20A101
_________
ORLANDO CORDIA HALL.,
Petitioner,
v.
T.J. WATSON, WARDEN, USP TERRE HAUTE,
Respondent.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
Execution Date: November 19, 2020 at 6:00 PM
_________
REPLY IN SUPPORT OF PETITION FOR
CERTIORARI AND EMERGENCY
APPLICATION FOR A STAY OF EXECUTION
_________
Orlando Cordia Hall respectfully petitions for a writ
of certiorari to review the judgment of the U.S. Court
of Appeals for the Seventh in this case, as well as an
emergency stay of his execution so that he can litigate
his claims.
INTRODUCTION
Absent intervention by this Court, Hall will be executed without any court having the opportunity to
consider his claim that his trial was infected by racial

(1)

2
bias. This is a fundamental miscarriage of justice that
can—and must—be remedied.
To avoid confronting the substance of Hall’s Batson
claim—which rests on evidence that the AUSA who
picked the all-White jury that convicted Hall and sentenced him to death has twice been adjudicated to
have impermissibly struck Black jurors on the basis
of their race and then lied about it—the government
contends that Hall’s claims are not cognizable under
28 U.S.C. § 2241.1 If the government is right, the necessary conclusion is that, even though this evidence
was unavailable when Hall litigated his § 2255 petition, and even though no statute of limitations bars
his claim, no viable forum exists, and the courthouse
doors are forever closed to a claim that the district court described as “extremely serious.” Pet.
App. 25a. In light of this Court’s admonition that
courts must “engage[] in ‘unceasing efforts’ to eradicate racial prejudice from our criminal justice system,” McCleskey v. Kemp, 481 U.S. 279, 309 (1987),
that result cannot stand. At the very least, the Court

1

The government misstates the issues on appeal. See
Opp. 2, 3, 13, 21, 26-27, 33-34. Hall seeks certiorari
review only of the two questions presented in his Petition, see Pet. (i)-(ii), and does not seek this Court’s
review of the separate claim he raised below concerning racial discrimination in the application of the federal death penalty. .

3
should stay Hall’s execution to permit consideration of
his claims. 2
I.

ANY PURPORTED DELAY DOES NOT
PRECLUDE RELIEF FOR HALL.

The government argues that delay in pursuing
Hall’s claims “weighs heavily against a stay here,”
Opp. 16, but identifies no bar precluding Hall from
raising his claims in a satisfactory § 2241 petition.
Morales v. Bezy, 499 F.3d 668, 672 (7th Cir. 2007). Instead, the government asserts that Hall’s delay in
raising his Batson claims renders interim relief unavailable here. That position is not supported by either
this Court’s precedents or the procedural posture in
which Hall finds himself.

2

As the government notes in n.2 of its Opp., the district court has already stayed Mr. Hall’s execution on
the basis that the federal execution protocol violates
the Food, Drug, and Cosmetic Act. The government is
appealing this ruling, while concurrently, Mr. Hall is
actively challenging his lack of due process regarding
executive clemency and raising the instant Batson
challenge. Given the number of important issues currently requiring judicial resolution, Mr. Hall requests
that this Court administratively stay his execution
until each of these claims can be litigated to finality. As his execution is already subject to a stay, this
request seeks only minor relief that will serve to maintain the status quo. Neither party will be adversely
affected by granting this request, and doing so will ensure that Mr. Hall’s important constitutional and statutory claims cannot be mooted extrajudicially.

4
The government’s authority is materially distinguishable. In Bucklew, plaintiff waited until just 12
days before his execution to challenge the state’s lethal injection protocol, Bucklew v. Precythe,139 S. Ct.
1112, 1120 (2019), and received a last-minute stay.
Bucklew v. Lombardi, 572 U.S. 1131 (2014). Only after five more years of litigation on the same claims,
including two appeals and two “11th-hour” stays, did
this Court find further delay unwarranted. 139 S. Ct.
at 1134. Hall has received no such process here.
And while the government asserts that Hall should
have brought his claims on direct appeal, Opp. 17,
there are multiple reasons why doing so would have
been impractical and, indeed, impossible: (1) the information surrounding Macaluso’s practices was unknown to Hall before this Court’s decision in Miller-El
II, 545 U.S. 231; (2) Hall’s § 2255 petition was already
pending; and (3) shortly after his § 2255 proceedings
concluded, Hall was protected by an injunction to
which the government consented.
Regardless, the government attempts to lure the
Court into applying a rigid rule prohibiting the grant
of a stay when a petitioner’s request is brought close
in time to his execution. But no such rule exists. See,
e.g., Gutierrez v. Saenz, No.19-8695, __ S. Ct. __, 2020
WL 3248349 (June 16, 2020) (granting stay of execution one day prior to scheduled execution); Madison v.
Alabama, 138 S. Ct. 1172 (2018) (granting stay on
date of execution).
Accordingly, any perceived delay by Hall is indeed
justifiable and does not, in any event, suggest that a
stay is unwarranted here.

5
II.

A.

THE PANEL MANIFESTLY ERRED BELOW
AND HALL IS LIKELY TO SUCCEED ON
THE MERITS.
§ 2255 Does Not Diminish Prisoners’ Right
to Relief.

The writ of habeas corpus is designed to permit
“[c]hallenges to the validity of any confinement.” Muhammad v. Close, 540 U.S. 749, 750, 124 S. Ct. 1303,
1304, 158 L. Ed. 2d 32 (2004). Contrary to the government’s argument, Opp. 20-22, this Court has recognized that “[n]owhere in the history of Section 2255 do
we find any purpose to impinge upon prisoners’ rights
of collateral attack upon their convictions.” United
States v. Hayman, 342 U.S. 205, 219 (1952). The savings clause is an integral part of a statute that as “history makes clear . . . was intended to afford federal
prisoners a remedy identical in scope to federal habeas corpus.” Davis v. United States, 417 U.S. 333, 343
(1974).
Contrary to the government’s suggestion, relief under § 2241 is not only warranted when it attacks the
“execution of a sentence,” Opp. 21. Circuit courts have
in general agreed that where an application of §
2255(h) would result in a “complete miscarriage of justice,” Bruce v. Warden Lewisburg USP, 868 F.3d 170,
179 (3d Cir. 2017), or an “intolerable result,” Webster
v. Daniels, 784 F.3d 1123, 1139 (7th Cir. 2015) (en
banc), § 2255 is “inadequate or ineffective to test the
legality of his detention” within the meaning of §
2255(e). See also Tolliver v. Dobre, 211 F.3d 876, 878
(5th Cir. 2000) (per curiam) (holding that though “Section § 2255 is the primary means of collaterally attacking a federal sentence[,]” a habeas action brought

6
as “a § 2241 petition attacking a federally imposed
sentence may be considered”). The contours of what
falls within such general scope is ill defined; as the
Seventh Circuit recently admonished against thinking that its existing precedent “rigidly describe[s] the
outer limits of what might prove that section 2255 is
inadequate or ineffective to test the legality of a person's detention.” Purkey v. United States, 964 F.3d
603, 611–12 (7th Cir. 2020). In Webster, the en banc
appeals court found that the petitioner could use §
2241 to present newly discovered evidence that his
“execution . . . violates the Eighth Amendment.” 784
F.3d at 1139. The panel below erred in not permitting
the present petition to proceed under § 2241 in light
of the new evidence demonstrating that a miscarriage
of justice and intolerable result will otherwise ensue.
B.

The Lower Court Erred In Concluding §
2255 Was Not Structurally Inadequate.

The government wrongly suggests that Hall’s claims
are an improper effort to circumvent the bars of
§ 2255, because they are based on newly discovered
evidence. Opp. 23-24. This argument ignores Hall’s
argument that scope of the savings clause in § 2255(e)
remains open, as recently recognized by the Seventh
Circuit in Purkey v. United States, 964 F.3d 603, 611–
12 (7th Cir. 2020). Though the lower courts appeared
to accept this fact, they did not make a serious attempt to analyze whether Hall’s petition sought to
cure a “fundamental problem,” id. at 615, and instead
focused on questions of venue and judicial economy in
the legislative history of the Antiterrorism and Effective Death Penalty Act (“AEDPA”). Pet. App. 23a-24a.

7
Moreover, the government’s argument that Hall
could have brought the claims presented in this petition in his initial § 2255 motion, Opp. 25, ignores the
fact that the evidence supporting Hall’s claim here
was not available until after his § 2255 motion was
denied. Contrary to the government’s arguments,
Opp. 25-26, and the district court nevertheless determined that because some of the information at issue
was purportedly in the public domain, Hall’s counsel
should have discovered it. Pet. App. 16a-18a. This
imposes an undue burden on defense counsel, and is
inconsistent with the idea that “[d]ue diligence . . .
means reasonable diligence, not the maximum feasible diligence.” Webster v. Watson, 975 F.3d 667, 683
(7th Cir. 2020) (quotation omitted); see also Williams
v. Taylor, 529 U.S. 420, 435 (2000) (diligence in the
context of procedural default means “a reasonable attempt, in light of the information available at the
time, to investigate.”).
That the district court was able to find evidence in
the public record using the Internet in the year 2020
does not bear on whether counsel in the late 1990s or
early 2000s could or should have been able to find it
at that time. Williams, 529 U.S. at 443 (reversing decision finding lack of diligence by habeas counsel and
stating that “[w]e should be surprised, to say the least,
if a district court . . . were to hold that in all cases
diligent counsel must check public records”). Hindsight may be 20/20, but it should not be the basis for
denying Hall the opportunity to litigate what the district court acknowledged to be “extremely serious”
claims. Pet. App. 25a.

8
And the evidence now available to Hall shows that
the racially motivated misconduct tainting his trial
was unfortunately not an isolated incident. Here, the
evidence would expose systemic failings of the death
sentence the government seeks to impose on Hall, despite its roots in the race of the Black defendant and
the Black men and women stricken from the venire
panel as part of a campaign to ensure no Black defendant like Hall had a true jury of his peers. The Court is
not “powerless to act in such a case.” Webster, 784 F.3d
at 1139.
C.

PREVENTING HALL FROM LITIGATING
HIS
CLAIMS
WOULD
BE
A
MISCARRAIGE OF JUSTICE.

Finally, even if the Court were to find that Hall
should have brought these claims sooner, it nevertheless should grant a stay and permit him to litigate
them because declining to do so would “result in a ‘fundamental miscarriage of justice.’” Coleman v. Thompson, 501 U.S. 722, 749-50 (1991) (internal quotation
omitted). The government argues that no circuit has
expressly created an “exception to Section 2255(e) for
race-related claims.” Opp. 28. But Hall does not ask
this Court to graft any such categorical exception onto
the statute. Rather, he contends that it would be a
fundamental miscarriage of justice in this case if the
government were permitted to execute him without
any opportunity for any court to consider and resolve
the merits of his “extremely serious” claim that his

9
death sentence was tainted by racial bias.3 Pet. App.
25a; see also Amicus Br. 2-3; id. at 11-14.
As amicus has explained, “[c]laims that racial discrimination has infected a death sentence are different in kind than other constitutional harms.” Amicus
Br. 6. And because the United States “lacks an interest in enforcing a death sentence obtained based on
racial discrimination,” “it would be a miscarriage of
justice for Hall to be executed without any court considering the significant evidence he has presented
that his death sentence was ‘obtained on so flawed a
basis.’” Id. at 4.4

3

Nor is Hall’s petition barred by the abuse-of-the-writ
doctrine. Opp. 29. McCleskey was decided before
AEDPA established a framework adjudicating successive petitions, and that framework is AEDPA. See
Wright v. Spaulding, 939 F.3d 695, 698 (6th Cir. 2019)
(Thapar, J.) (observing that “AEDPA tried to curb
what courts used to call ‘abuse of the writ’” before enacting legislation that governs “second or successive”
habeas petitions).
4

And to set the record straight, Hall has never “conceded that the trial record itself shows no Batson violation.” Opp. 29. What Hall has argued is that courts
have hesitated to find a Batson violation based on a
cold trial record alone. Br. 22-23. Further, while the
government says Hall’s reliance on cases like Buck v.
Davis is “misplaced,” it offers no explanation for this
conclusory assertion. Id.

10
III. THE PANEL’S ORDER WOULD MEAN NO
COURT
EVER
HEARS
HALL’S
MERITORIOUS BATSON CLAIMS.
The government’s attempt to minimize Hall’s showing of substantial violations under Batson v. Kentucky
fails for at least three reasons: (1) the government
completely ignores Paul Macaluso’s undeniable record
of impermissibly striking minorities from juries; (2) it
is a fallacy to suggest that Batson violations are the
province of trial, and not appellate, courts; and (2) the
government has not meaningfully distinguished the
disparate treatment of Black and White prospective
jurors identified by Hall.
First, the government tries to sidestep Macaluso’s
track record of Batson violations, going as far as to
make the incredible claim that there is nothing “tying
the Sparling Manual to this case.” Opp. 33. That, of
course, intentionally overlooks that this Court analyzed that manual in detail and called out Macaluso
by name ten times in Miller-El, 545 U.S. 231. “If anything more is needed for an undeniable explanation
of what was going on, history supplies it.” Id. at 266.
As the Supreme Court and Fifth Circuit have made
clear, Macaluso was well-versed in eliminating racial
minorities from the jury pool. Id.; Reed v. Quarterman, 555 F.3d 364 (5th Cir. 2009). This history is unquestionably relevant, see Flowers, 139 S. Ct. at 2246,
and it bears directly on the strength of Hall’s Batson
claim here. No amount of evasiveness can allow the
government to avoid it.
Second, the government apparently now takes the
position that Hall got all of the review of his Batson
claim he is owed because the trial court heard a

11
Batson challenge at trial. Opp. 32. This ignores that
the Batson claim raised in this Petition is premised on
evidence that was indisputably unavailable at
trial. Indeed, had the trial court been aware of Paul
Macaluso’s shameful history, it may well have
reached a different conclusion at that hearing. Flowers v. Mississippi, 139 S. Ct. 2228 (2019), which the
government cites, Opp. 32, demonstrates this
point. There, the petitioner lost a Batson challenge at
trial, only to have his constitutional rights vindicated
by this Court based on more comprehensive evidence—precisely what Hall seeks here. 139 S. Ct. at
2232-33 (“At the sixth trial, the State exercised six
peremptory strikes—five against black prospective jurors . . . Flowers again raised a Batson claim, but the
trial court concluded that the State had offered raceneutral reasons for each of the five peremptory
strikes”).
Third the government asserts that the Batson
claims are not meritorious, but this argument ignores
the detailed side-by-side juror analysis proffered by
Hall for potential Black jurors Amy Evans and Billie
Lee.
That analysis, at a minimum, shows that Ms. Evans
and Ms. Lee were struck on grounds for which other
potential jurors, who were White, were not struck.
Both Ms. Evans and Ms. Lee were purportedly struck
for reasons the government never questioned them
about during voir dire. Br. 34-35; see also Pet.-App.
Br. at 34-37, Hall v. Watson, No. 20-3229 (7th Cir.
Nov. 18, 2020). The failure to ask those questions “is
evidence suggesting that the explanation is a sham
and a pretext for discrimination.” Miller-El II, 545

12
U.S. at 246. The government also claimed to strike
both Ms. Evans and Ms. Lee for their relationships to
individuals who were either in prison or practicing defense attorneys. Br. 34-35. Again, White jurors with
similar relations were not struck. While the prosecution claimed that Lee and Evans were equivocal in
their views on the death penalty, other White jurors
held similar views but nonetheless were not struck.
This disparate treatment among similar White and
Black jurors too is indicative of pretext. Miller-El II,
545 U.S. at 241. Taken together, there is considerable
evidence of a Batson violation.
In light of the Supreme Court’s decision in Miller-El
II—both the legal principles it articulated and its specific finding that one of the very same prosecutors responsible for seating the all-White jury that convicted
and sentenced Hall had discriminated on the basis of
race and then tried to conceal that discrimination by
offering pretextual justifications—Hall has established a likelihood of success of establishing, at a minimum, that Ms. Lee and/or Ms. Evans were impermissibly struck on account of their race, in violation of
Batson.
IV.

THE BALANCE OF THE EQUITIES
WEIGHS IN FAVOR OF A STAY

There is an unmistakable “likelihood of irreparable
harm if the judgment is not stayed.” Philip Morris
USA Inc. v. Scott, 561 U.S. 1301, 1302 (2010). Without
a stay, Hall will be executed amid violations of his constitutional and statutory rights, this Court will be
stripped of jurisdiction to consider the petition. That
would constitute an “irremediable” harm. Ford v.
Wainwright, 477 U.S. 399, 411 (1986).

13
And “when, as in this case, ‘the normal course of appellate review might otherwise cause the case to become moot,’ * * * issuance of a stay is warranted.”
Garrison v. Hudson, 468 U.S. 1301, 1302 (1984)
(Burger, C.J., in chambers) (citing In re Bart, 82 S. Ct.
675, 676 (1962) (Warren, C.J., in chambers)). Because
“the balance of harms favors applicants,” id., the
Court should stay Hall’s execution.
CONCLUSION
For the foregoing reasons, and those discussed in the
Petition for Writ of Certiorari and Hall’s Emergency
Application for a Stay of Execution, the Petition and
Emergency Application for a Stay of Execution should
be granted.
Respectfully submitted,
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com

MARCIA A. WIDDER
104 Marietta Street NW,
Suite 260
Atlanta, GA 30303
(404) 222-9202
NOVEMBER 19, 2020

ROBERT C. OWEN
LAW OFFICE OF ROBERT C.
OWEN, LLC
53 West Jackson Blvd.,
Suite 1056
Chicago, IL 60604

